 DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


               Letter Report: 

        FEMA’s Progress in Addressing 

     Information Technology Management 

                 Weaknesses 





OIG-07-17                     December 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                       December 8, 2006


MEMORANDUM FOR: 	             R. David Paulison
                              Director
                              Federal Emergency Management Agency


FROM:          	              Richard L. Skinner
                              Inspector General

SUBJECT:           	          FEMA’s Progress in Addressing Information Technology
                              Management Weaknesses


This letter provides the results of our follow-up audit of the Federal Emergency Management
Agency’s (FEMA) efforts to address the response and recovery technology weaknesses identified in
our September 2005 audit report, Emergency Preparedness and Response Could Better Integrate
Information Technology with Incident Response and Recovery (OIG-05-36). In the report, we
reviewed the Department of Homeland Security’s (DHS) approach to responding to and recovering
from terrorist attacks, major disasters, and other domestic emergencies; assessed the effectiveness of
guidance and processes to support information technology (IT) users during incident management;
and, identified and evaluated existing and proposed systems and other technologies to help carry out
FEMA’s mission. For this follow-up audit, we evaluated the progress that FEMA has made to
address our prior report recommendations within the context of its plans and activities to improve
the National Emergency Management Information System (NEMIS). We examined FEMA’s IT
improvement efforts in both the short-term as the agency prepare for the 2006 hurricane season, as
well as in the long-term as it works to align with the department’s overarching strategic direction.

To conduct our follow-up audit, we evaluated compliance updates that FEMA provided us in
December 2005 and April 2006, outlining milestones, action plans, and scheduled or actual dates for
completing activities that address our report recommendations. We also obtained details from
FEMA on two of its key IT improvement efforts: eNEMIS, a short-term upgrade effort intended to
modernize current NEMIS components; and, Next Generation NEMIS, a large-scale restructuring
effort involving system-wide transformation. We subsequently interviewed FEMA personnel and
gathered and reviewed additional documentation, as appropriate, to assess the progress of FEMA’s
initiatives. We conducted this audit according to generally accepted government auditing standards
from June to August 2006, in the Washington, D.C. metropolitan area.




cc: Jeanne Etzel, FEMA Acting Chief Information Officer
                                   SUMMARY RESULTS OF AUDIT 


FEMA has made progress in several areas, particularly short-term adjustments to prepare for the
2006 hurricane season. These improvements primarily included increasing NEMIS capacity and
online system access and strengthening verification of registration data. In addition, FEMA and its
program offices specifically addressed our recommendations by documenting training resources,
developing a plan to implement its enterprise architecture (EA), gathering requirements for new
business tools, and improving configuration management.

However, despite these positive steps, FEMA has not documented or communicated a strategic
direction to guide long-term IT investment and system development efforts. FEMA also has not
performed crosscutting requirements gathering to determine business needs, which would allow
Information Technology Services Division (ITSD) personnel to analyze alternatives to continued
development of the complex, custom NEMIS system. We note below several resource challenges
for FEMA to accomplish these tasks, including personnel needs, time limitations, and funding
constraints. For example, high-level officials acknowledged the need for personnel who can
effectively and efficiently manage system development efforts, especially as key personnel are
allocated to assist in disaster and emergency response activities. Further, FEMA officials told us
that funding constraints also have prevented the creation of sufficient training and testing
environments. Therefore, constrained by limited resources, FEMA has focused its efforts on
preparing for the 2006 hurricane season and has made little progress in addressing long-term needs,
such as updating strategic plans, defining cross-cutting requirements, and evaluating systems
alternatives.


                          RECOMMENDATION #1: STRATEGIC PLANS

Office of Management and Budget (OMB) Circular A-11 recommends that component agencies
create their own strategic plans linked to overarching departmentwide plans.1 In September 2005,
we reported that FEMA’s strategic and IT plans did not align completely with DHS’ strategic plan.
Because FEMA had not updated its plans, there was little assurance that the agency could monitor
and achieve the emergency management goals established by the department. We recommended
that:

The Under Secretary for Emergency Preparedness and Response (EP&R) update the FEMA
strategic plan to support achievement of DHS goals and ensure that all FEMA systems provide
the performance data necessary to measure progress toward achieving response and recovery
goals. Subsequently, direct the EP&R CIO to update the IT strategic plan in line with the
updated FEMA strategic plan.2

In their December 2005 response to our recommendation, the Acting Director and the Chief
Information Officer (CIO) of FEMA said that they were working in close coordination with the
Office of Plans and Programs, and that the FEMA strategic plan would be updated during FY 2006,

1
  Circular A-11, Part 6, Preparing and Submitting a Strategic Plan, Executive Office of the President, Office of
Management and Budget, June 2005.
2
  On October 1, 2005, the Emergency Preparedness and Response (EP&R) Directorate was dismantled, with
preparedness functions moved to a new Preparedness Directorate. FEMA, originally part of EP&R, became a separate
DHS entity that reports directly to the Secretary and retained responsibility for consequence management after
catastrophes, including response and recovery activities.

                                                        2

with the IT strategic plan following thereafter. However, a subsequent response, dated April 2006,
stated that due to longer-term retooling of FEMA and evaluations of FEMA by the Congress, the
Government Accountability Office, the DHS Inspector General, and the White House Homeland
Security Council, FEMA could not specify when its strategic plan would be updated, although it
anticipated that the plan would be updated this fiscal year.

FEMA’s decision to focus on short-term improvements for the 2006 hurricane season has increased
system capabilities; however, it also has created risks for long-term strategic coordination and IT
development. Because necessary updates to FEMA’s strategic plan and the IT strategic plan have
been put aside, the misalignment of DHS and FEMA strategic plans continues. This misalignment
complicates efforts to link IT initiatives to overarching mission direction. It also increases the
potential that IT initiatives might not support the achievement of DHS response and recovery goals
in both the short- and long-term.

Short-term
In the short-term, FEMA has successfully planned for and implemented solutions that address many
of the IT shortfalls identified during the 2004 and 2005 hurricane seasons. For example, FEMA
improved the capacity, scalability, and survivability of NEMIS to support disaster management. To
do so, FEMA created an additional site for servers that could share the load of victim registrations
and applicant processing across several sites. As a result, FEMA increased its disaster victim
registration capacity so that NEMIS now can handle up to 200,000 registrations within a 24-hour
period, which is approximately double the number handled during the hurricane Katrina recovery
effort. Such increased capacity should decrease disaster victims’ wait time to register with FEMA;
and ultimately, victims should receive assistance more efficiently and effectively. In addition,
FEMA worked to reduce the potential for fraudulent disaster claims by adding automated applicant
verification and validation checks during online and call center disaster registrations, allowing
program area discretion in using this capability. Although these actions should improve FEMA’s
ability to respond to disasters, the concentration on short-term solutions has been to the detriment of
long-term planning.

Long-term
FEMA has not established long-term direction as an agency. In the absence of up-to-date FEMA
and IT strategic plans, system development efforts may not meet the long-term mission needs of the
department and the agency. Previous FEMA plans to upgrade NEMIS included a long-term
integrated approach to system development. However, recent NEMIS updates have continued
without sufficient definition and understanding of the future direction of the NEMIS architecture.
For example, the Emergency Management Mission Integrated Environment (EMMIE), an effort to
provide a single grants processing capability within the NEMIS platform, is being developed without
a clear understanding and definition of Next Generation NEMIS. The EMMIE project scope
document acknowledges the risks of developing system components without first defining the long-
term vision of NEMIS, stating that:

       • 	 Insufficient planning may result in unnecessary system rework and delays;
       • 	 The existing NEMIS architecture may be significantly different from the expected Next
           Generation NEMIS future architecture, hindering the ability to design, as required, a
           system that integrates with both; and,
       • 	 The EMMIE project may be seen as duplicative of DHS or other federal efforts.



                                                   3

Without meaningful strategic plans that provide direction and focus for aligning IT with response
and recovery goals, FEMA cannot ensure that its IT funding is effectively spent and that projected
systems will meet future needs. As such, our recommendation will remain open until the FEMA and
IT strategic plans have been updated.


       RECOMMENDATION #2: TRAINING, GUIDANCE, AND COMMUNICATION

OMB Circular A-130 states that users of federal information resources must have the skills,
knowledge, and training to manage information resources.3 In September 2005, we reported that
additional guidance and training were necessary to ensure that FEMA system users have the
knowledge and information necessary to perform their jobs efficiently and effectively. We
recommended that:

The Under Secretary for EP&R direct the EP&R CIO to ensure that personnel, through the
EP&R training division, receive adequate systems training, guidance, and communication
needed to support disaster response and recovery activities effectively.

FEMA has taken a number of positive steps to respond to this recommendation. First, FEMA met
with our office to clarify the scope of the recommendation. Following that meeting, FEMA
established plans to address user training, guidance, and communication. Specifically, FEMA
surveyed users’ training needs and partnered with the Emergency Management Institute to develop a
training plan. Second, FEMA began offering online training and linked system training (“how” to
perform a task) with job training (“when” or “why” to perform a task). Third, FEMA provided up-
to-date system user guidance. FEMA also has updated and standardized operating procedures for
system users across all National Processing Service Centers.

Although FEMA has improved training and guidance, additional resources are necessary to develop
a robust training environment. For example, FEMA officials said that they do not have a training
environment where new users can practice or test their skills and that this has limited their ability to
train personnel effectively. Although FEMA has a test and development lab that it uses for training,
it has limited capacity and is unable to accommodate the large numbers of new employees that
FEMA hires and trains during disaster responses. The lack of a sufficient training environment also
makes it difficult to evaluate more experienced users as they take on increasingly complex jobs
within the system.

In addition, better communication between FEMA system users and program offices regarding
system changes and strategic system direction is needed. In particular, experienced system users do
not receive adequate communication or documentation of system updates or business process
changes. Users also need additional communication on the scope of the eNEMIS project and plans
for future IT developments that may benefit response activities. For example, when asked to explain
NEMIS development efforts, several program area officials could not differentiate between
eNEMIS, Next Generation NEMIS, or EMMIE.

Moreover, even though FEMA’s CIO created the Project Management Office to develop personnel
and capabilities in project, program, and portfolio management, the appointed IT liaisons within this

3
 Revision of Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal Information
Resources, November 2000.

                                                       4

office are not always effective. For example, officials said that IT liaisons are overburdened or
unavailable for consultation on program needs and development. Also, high-level FEMA officials
said that personnel with customer relationship management skills are needed to improve
communication between ITSD and the FEMA program offices regarding system updates and
training. Based on these findings, our recommendation will remain open until FEMA ensures that
users receive adequate communication on system updates and overall IT direction. A sufficient
training environment available for system users would be beneficial to support this effort.


                    RECOMMENDATION #3: ENTERPRISE ARCHITECTURE

The Clinger-Cohen Act of 1996 requires the CIO to develop, maintain, and facilitate the
implementation of a sound, enterprise-wide IT architecture.4 In September 2005, we reported that
FEMA had not yet defined its ‘to be’ enterprise architecture (EA). We recommended that:

The Under Secretary for EP&R direct the EP&R CIO to complete the FEMA enterprise
architecture, linked to the departmentwide architecture and ongoing initiatives that may
impact EP&R operations.

In response, FEMA developed a comprehensive five-year roadmap for achieving the highest
possible EA level, including a long-term plan for completion of the “to be” architecture and a
transition strategy. Once documented, the EA is expected to support systems integration and
effective information exchange, define a strategy for IT, and allow FEMA to map its IT initiatives
and link them to departmentwide IT goals.

As a result, we are leaving this recommendation open until FEMA completes execution of its EA
plan and the “to be” EA is fully documented and approved by the DHS CIO.


    RECOMMENDATION #4: REQUIREMENTS GATHERING AND ALTERNATIVES

                             ANALYSIS


OMB Circular A-11 directs agencies to reduce project risk by involving stakeholders in the design of
IT assets, as users can play an important role in helping to define systems requirements to meet
mission needs.5 In addition, OMB Circular A-130 encourages agencies to consider various options
for providing automated systems to meet their mission needs.6 However, in September 2005, we
reported that FEMA’s approach to defining requirements to support development of its principal
disaster management system, NEMIS, was ineffective. We said that without fully defining and
documenting system requirements, it was difficult for FEMA to evaluate viable alternatives to
NEMIS. We recommended that:




4
  Clinger-Cohen Act (formerly the Information Technology Reform Act of 1996), Public Law 104-106, Division E. 

5
  Circular A-11, Part 7, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the President, 

Office of Management and Budget, June 2005. 

6
  Revision of Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal Information 

Resources, November 2000. 


                                                           5

The Under Secretary for EP&R ensure crosscutting participation from headquarters, regions,
and states in processes to develop and maintain a complete, documented set of FEMA business
and system requirements. Direct the EP&R CIO to analyze alternatives and determine the
most appropriate approach to providing the technology needed to support these business and
system requirements.

FEMA has taken a number of positive steps to address this recommendation. Specifically, FEMA
identified three initiatives to obtain, manage, and implement requirements. First, as noted above,
FEMA created the Project Management Office to facilitate requirements gathering and
communication. Second, FEMA prepared to implement system development life cycle governance
as part of its capital planning and investment control process. Third, FEMA created an Agile System
Development branch to gather and respond to urgent requirements identified during disasters.
Despite these improvements, program offices did not gather crosscutting business and system
requirements. For example, the Public Assistance branch supported EMMIE development, the new
grants management application, but the Mitigation Division chose not to participate because ITSD’s
plan was insufficient. Mitigation officials said that ITSD did not have an adequate number of
personnel with appropriate skill sets to meet emerging needs in project and customer management.
One senior ITSD official said that the systems engineering and development branch would need to
double its staff to successfully meet demand.

As a result, FEMA has not sufficiently documented requirements for NEMIS, and therefore, is
unable to perform an adequate alternatives analysis for this system. Specifically, the business cases
for Next Generation NEMIS and eNEMIS limited consideration to custom solutions, although
FEMA program officials said that components of NEMIS likely could be replaced with off-the-shelf
alternatives. Without gathering requirements and analyzing alternatives, FEMA ITSD may not take
advantage of the most appropriate technologies available.

Our recommendation will remain open until FEMA ensures crosscutting participation in developing
and documenting business and system requirements, and the FEMA CIO analyzes alternatives to
establish the most appropriate approach to providing technology for those requirements.


       RECOMMENDATION #5: CONFIGURATION MANAGEMENT AND TESTING 

                             ENVIRONMENT 


In September 2005, we reported that FEMA did not have an adequate test environment and did not
always test systems sufficiently prior to release to ensure that new IT functionality will work
properly and contain needed safeguards. Without an adequate testing environment, FEMA is
vulnerable to the risks associated with improper testing, such as increased failure rates and
development costs.7 We recommended that:

The Under Secretary for EP&R direct the EP&R CIO to develop and maintain a testing
environment that duplicates the real systems environment and ensures that all systems
components are properly and thoroughly tested prior to their release. Additionally, direct the
EP&R CIO to ensure that proper configuration management activities are followed and
documented.

7
 Planning Report 02-3, The Economic Impacts of Inadequate Infrastructure for Software Testing, National Institute of
Standards and Technology, May 2002.

                                                          6

In response, FEMA officials said that they were compiling a comprehensive update for configuration
management policy and provided copies of their updated procedures. FEMA also outlined a two-
phased approach for implementing an adequate testing environment. During the first phase, FEMA
planned to upgrade the equipment in the testing and development lab (TDL) in time to test
applications for the 2006 hurricane season. For the second phase, FEMA plans to establish a new
test environment completely independent of the existing TDL by the 2008 hurricane season.

Despite these plans, FEMA has not yet established an adequate testing environment. FEMA
officials stated that insufficient funding limited their ability to provide a proper testing environment.
A senior FEMA IT official requested the establishment of a new test environment as part of the Next
Generation NEMIS project; however, project funding was denied. Further, the complex NEMIS
system, with over 1,000 business rules, makes it difficult and costly to replicate in a mirror testing
environment. As such, FEMA has not implemented phase 1 improvements for the 2006 hurricane
season and does not have a schedule to implement phase 2 improvements. This recommendation
will remain open until FEMA takes the steps needed to ensure availability of an adequate testing
environment.




                                                    7

                  MANAGEMENT COMMENTS AND OIG EVALUATION 


We obtained written comments on a draft of this report from FEMA’s Acting Chief Information
Officer, through the FEMA Director. We have included a copy of the comments in their entirety in
Appendix A of this report.

In the comments, the Acting CIO concurred with our follow-up assessment of progress made and
provided updates on the status of FEMA’s efforts to implement each of the five recommendations
included in our prior September 2005 report. The Acting CIO understood that each of the
recommendations will remain open until actions within FEMA’s Plans of Action and Milestones are
completed. Since the initial September 2005 audit report, FEMA’s Office of the CIO has
consistently provided the OIG with 90-day status updates concerning its plans and actions to address
our recommendations. In addition, the Acting CIO holds bi-weekly meetings to ensure that progress
is being made on implementing the recommendations.

In response to recommendation 1, the Acting CIO acknowledged the importance of linking FEMA’s
Strategic Plan to the long-term retooling of FEMA. The Acting CIO recounted that to prepare for
the 2006 hurricane season, however, the DHS Secretary directed that short-term retooling efforts
take precedence over long-term planning efforts. Because of the concentration on short-term
retooling efforts, FEMA’s Strategic Planning Office was unable to update FEMA’s Strategic Plan in
FY 2006, but intends to do so. Once this plan is revised, the Acting CIO will update the Information
Technology Strategic Plan within nine months. We look forward to receiving progress reports on
the Strategic Planning Office’s efforts to update FEMA’s Strategic Plan, as well as the Office of the
CIO’s subsequent efforts to revise its IT Strategic Plan.

In response to recommendation 2, the Acting CIO stated that FEMA has made significant progress
by continuing to improve NEMIS training and guidance through field training, train-the-trainer
activities, and continued development of user support materials. However, the Acting CIO conceded
that systems training still occurs in a test and development environment, making it challenging for
FEMA to ensure that personnel receive suitable IT instruction. Additional physical space also is
needed within the data center to establish distinct training environments. As NEMIS is updated,
there are plans to create a dedicated training environment. In addition, an internal working group is
being formed to support the further enhancement of FEMA’s training and guidance activities.
Lastly, the Acting CIO believes that ongoing efforts to refine its Program Management Office, the
Enterprise Architecture, and IT customer liaison functions will improve customer relationship
management and communications with system stakeholders. We are encouraged by the recent
activities completed and believe that the steps outlined mark progress toward ensuring that FEMA
personnel receive adequate systems training, guidance, and communication.

To address recommendation 3, FEMA has restarted its efforts to formulate the “to be” enterprise
architecture and has filled previously vacant employee positions to support this effort. These
additional resources should place FEMA in a better position to refine its enterprise architecture. We
look forward to receiving updates concerning the status of FEMA’s efforts to formulate its “to be”
enterprise architecture.

In response to recommendation 4, the Acting CIO discussed plans for ensuring crosscutting
representation and participation by the various stakeholder communities to maintain a complete,
documented set of FEMA business and system requirements. Specifically, the Acting CIO stated
that FEMA performed an extensive analysis of the requirements and design and development

                                                  8

alternatives for the EMMIE system, the new application to replace NEMIS grants functionality. As
stated in our report, not all program areas participated in the requirements definition for EMMIE,
which therefore did not ensure complete, cross-functional requirements. Additionally, the business
case for eNEMIS limited consideration to custom solutions, although FEMA program officials said
that components of NEMIS likely could be replaced with off-the-shelf alternatives. Specifically, the
eNEMIS business case lists the following three alternatives: (1) using the existing, custom-based
system, (2) upgrading the existing two-tiered client-server technology to an internet, custom-based
application, or (3) building a new custom system to meet all of the requirements. However, the
business case does not consider potential off-the-shelf solutions to meet customer needs and also
states that “No known disaster assistance system provides the level of access, redundancy,
functionality and mobility as NEMIS/eNEMIS currently provides.”

We believe that although off-the-shelf systems may not provide all of the functionality of a custom-
based system, there is no indication that an analysis was performed to determine if an off-the-shelf
solution could meet FEMA’s disaster assistance needs. Without such an analysis, FEMA ITSD may
not take advantage of the most appropriate technologies available.

Finally, to address recommendation 5, the Acting CIO said that in addition to needing an adequate
testing environment, FEMA also requires the establishment of sufficient production, development,
and training environments. The Acting CIO is working to resolve current space constraints within
the data center to add the additional hardware needed to expand the existing technical environments.
Further, the Acting CIO is refining FEMA’s configuration and software release management
processes and ensuring the availability of sufficient personnel resources to support these processes.
We are encouraged by the Acting CIO’s efforts to expand the existing technical environments and
look forward to hearing about progress in this area.




                                                  9

      Appendix A
MANAGEMENT COMMENTS





        10

11

12

13

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
